                        Office of Inspector General
              Corporation for National and Community Service

January 26, 2011
For Immediate Release
Contact: William Hillburg, (202) 606-9368

  OIG Finds Serious Problems in American Samoa AmeriCorps Program


The Office of Inspector General (OIG), Corporation for National and Community
Service (Corporation), has completed a review that found serious problems in
many aspects of the AmeriCorps program administered by American Samoa
Special Services Commission (ASSSC). The audit report has been posted on
the OIG website at www.cncsoig.gov.

ASSSC has received more than $7 million in Federal funds since 2001 to operate
the AmeriCorps program in American Samoa, a U.S. Territory in the South
Pacific. The review, which focused on recent Corporation grants totaling more
than $4.8 million, questioned more than $400,000 in claimed costs and education
awards given to AmeriCorps members.

The reviewed grants included a $375,000 outlay to ASSSC made under the
American Reinvestment and Recovery Act (ARRA). The auditors questioned
more than $121,000 of ASSSC’s claimed ARRA grant costs.

The auditors reported a lack of financial systems and controls to track     and
account for Federal grant funds. For example, computers purchased           with
taxpayer funds for ASSSC’s office were found in the homes of officials      and
employees, who were also given routine salary advances, overtime pay        and
compensation for questionable or non-existent official travel.

The auditors further found that ASSSC’s AmeriCorps programs had weaknesses
in AmeriCorps member’s timekeeping procedures, and in some instances,
timesheets did not support member eligibility for education awards.

“These audit findings indicate some of the most serious misuses of Federal funds
my office has seen in recent years,” said Acting Inspector General Kenneth
Bach. “We are continuing our inquiry into the findings.”

Based on the OIG’s management alert to the Corporation, the agency quickly
suspended ASSSC’s access to Federal grant funds and placed it on a manual
draw of funds. The decision means that ASSSC is required to submit proof of
appropriate expenses before being allowed access to Federal funds for
reimbursement.

The OIG has recommended that the Corporation terminate all grants to ASSSC.
“We appreciate the Inspector General’s analysis of the American Samoa
Commission and are equally concerned about the findings,” said Robert Velasco,
the Corporation’s Chief Operating Officer.“ The Corporation has a statutory
requirement to allocate one percent of appropriated funds for AmeriCorps
programs to the U.S. Territories and we take the responsibility to protect these
funds very seriously. Upon initial notification of the Inspector General’s concerns,
the Corporation suspended American Samoa’s access to Federal funds. Based
upon a thorough review of the final audit report, the Corporation will take
appropriate corrective action, including recouping funds we disallow and
terminating the grants, if necessary.”
